   February 25, 2004




Acquisition
DoD Source Approval Process for
Service & Sales, Inc., a Small
Business Manufacturer
(D-2004-055)




              Department of Defense
          Office of the Inspector General
Quality                Integrity      Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AS                    Aerospace Basic Quality System
CAI                   Critical Application Item
CSI                   Critical Safety Item
DLA                   Defense Logistics Agency
ESA                   Engineering Support Activity
ISO                   International Organization for Standardization
OEM                   Original Equipment Manufacturer
SAR                   Source Approval Request
           Office of the Inspector General of the Department of Defense
Report No. D-2004-055                                                 February 25, 2004
   (Project No. D2002CH-0095)

            DoD Source Approval Process for Service & Sales, Inc.,
                      a Small Business Manufacturer

                                  Executive Summary

Who Should Read This Report and Why? The small business community and
acquisition, logistics, and engineering personnel within DoD should read this report because
it concerns procuring spare parts competitively from a qualified women-owned small
business manufacturer.

Background. Service & Sales, Inc. has supplied parts to DoD for more than 32 years.
Initially, the contractor purchased Government surplus material and resold the material back
to the Government as needed. The contractor also served as a supplier for Honeywell
International, Inc. (Honeywell) and other original equipment manufacturers. In addition,
Service & Sales, Inc. was given permission by Honeywell to bid on Honeywell requirements
that were advertised in the commerce business daily. As a result, Service & Sales, Inc.
started processing and overhauling material and eventually moved into manufacturing. In
1992, Honeywell filed a lawsuit against Service & Sales, Inc. to reacquire the business
Service & Sales, Inc. was then performing. Honeywell asked for documented evidence that
authorized the contractor to manufacture the parts. Service & Sales, Inc. provided the
requested documentation and filed a counter-lawsuit. Honeywell and Service & Sales, Inc.
negotiated a licensing agreement over the next several months to avert the pending court
action.

The agreement perpetually licensed Service & Sales, Inc. on a nonexclusive basis to use
Honeywell technical data to manufacture certain parts for sale to the Government. The
agreement granted Service & Sales, Inc. the right to manufacture 958 base parts and their
subcomponent parts for sale to DoD. As part of this agreement, Service & Sales, Inc. was
provided access to the latest revisions of the licensed technical data for its use in
manufacturing the parts. Honeywell also agreed to provide assistance for the covered parts
to include drawing interpretations and test procedures.

The audit was performed in response to a complaint made to the Defense Hotline. The
complaint made five allegations that the ability of Service & Sales, Inc. to compete was
inhibited for spare parts orders of parts previously supplied to DoD that were included on a
licensing agreement with Honeywell. Specifically, the allegations stated that parts for
which Service and Sales, Inc. was an approved alternate source had been placed on a sole-
source contract with Honeywell, Service & Sales was removed as a potential source because
it had not recently supplied the parts, the Defense Logistics Agency (DLA) source approval
data was not accurate, DLA was inappropriately removing approved source designations,
and Service & Sales, Inc. was inappropriately removed as an approved source for a specific
product line. The first three allegations were substantiated, the fourth allegation was
partially substantiated, and the fifth allegation was not substantiated. See Appendix C for a
discussion of the specific allegations and results of this review.
Results. DLA and the ESAs had not effectively approved Service & Sales, Inc. as an
alternate source of supply for 253 of 434 items included on a licensing agreement with
Honeywell and 19 of 28 items not included on the licensing agreement but previously
supplied to DoD. As a result, DLA was generally procuring the items from the original
equipment manufacturer instead of procuring the items competitively and using a small
business manufacturer. DLA should take immediate action to reinstate Service & Sales,
Inc., as an approved source of supply for items previously manufactured, establish
procedures that document why a source is removed from the list of approved manufacturers,
and notify the contractor when removed. DLA should also develop, in conjunction with the
Service ESAs, consistent and realistic guidance and procedures for reevaluating sources for
critical safety items and critical application items and for addressing source approval
requirements for items included on licensing agreements with original equipment
manufacturers. See the finding for detailed recommendations.

In November 2002, representatives from the Naval Inventory Control Point, Philadelphia
performed a site survey at Service & Sales, Inc. to assess the contractor’s manufacturing
capabilities. Representatives from the Air Force engineering support activities (ESAs) were
also in attendance. The group, including members of the audit team, toured the contractor’s
facility and held discussions with company officials. The group reviewed the licensing
agreement and the contractor’s quality control system and tested compliance with the stated
procedures. The Navy found that Service & Sales, Inc. could manufacture, assemble, and
inspect a diverse line of both critical safety items and critical application items. Prior to the
site survey, the information that Service & Sales, Inc. provided DLA and the Service ESAs
lacked details on the terms of the licensing agreement. As a result, DLA and the Service
ESAs were unaware of the level of access that Service & Sales, Inc. had been granted to the
parts’ technical data. A copy of the Navy site survey can be found in Appendix E.

Management Comments and Audit Response. DLA generally agreed with the
recommendations. For items for which the Navy and the Air Force are listed as the only
source, DLA agreed to take appropriate action to either reinstate or approve Service &
Sales, Inc. as an alternate source of supply. Further, DLA agreed to notify an approved
source when they were removed as a source, to use the Joint Aeronautical Commanders
Group Memorandum on Management of Aviation Critical Safety Items to revalidate the
sources of critical safety items, and to develop, in conjunction with the Service ESAs,
guidance to revalidate critical application items and to approve sources for items under
acceptable licensing agreements with original equipment manufacturers. Although DLA has
established procedures for Service & Sales, Inc. to be approved or reinstated as an approved
source for the items that the Navy or the Air Force is listed as the only user, it has not
addressed what procedures will be used to approve Service & Sales, Inc. as a source for
parts that require the review of multiple Services. Accordingly, we request that DLA
provide additional comments on the final report by April 26, 2004. See the Finding section
of the report for a discussion of the management comments on the recommendations and our
audit response, and the Management Comments section of the report for the complete text of
the comments.




                                                ii
Table of Contents

Executive Summary                                                                i

Background                                                                      1

Objective                                                                       4

Finding
     Source Approval Process for Small Business Manufacturers                    5

Appendixes
     A. Scope and Methodology                                                   17
          Management Control Program Review                                     18
     B. Prior Coverage                                                          19
     C. Hotline Allegations                                                     20
     D. Index of Reviewed Parts                                                 22
     E. Naval Inventory Control Point, Philadelphia Site Survey Status Report   34
     F. Report Distribution                                                     41

Management Comments
     Defense Logistics Agency                                                   43
Background
    We performed this audit in response to allegations made to the Defense Hotline. The
    complaint alleged that Service & Sales, Inc., a woman-owned small business, was
    inappropriately being denied the ability to compete for orders of parts that were
    contained in its licensing agreement with Honeywell International, Inc. (Honeywell)
    because of problems with the process used to approve sources. See Appendix C for
    a full discussion of the allegations.

     Approval Process for New Sources. The Defense Logistics Agency’s (DLA)
     Technical Support Policy and Procedures Deskbook, dated May 10, 2002,
     establishes procedures for approving alternate sources of supply. Once an offer is
     received to supply a part from an “unapproved” supplier, a DLA buyer forwards
     the offer to the appropriate technical specialist for evaluation.

     The technical specialist verifies that the offer includes legible and complete
     copies of drawings, specifications, or other data related to the product being
     offered. The data submitted must cover design, materials, performance,
     functions, interchangeability, inspection and testing criteria, and other
     characteristics of the offered product. The technical specialist also performs a
     cost benefit analysis and determines if the savings justify incurring the cost to
     evaluate the offer. Offers for supplying noncritical parts are evaluated within
     DLA; however, offers for critical parts that include both critical safety items
     (CSI--items that if damaged will cause loss of aircraft or life of operating
     personnel and critical application items (CAI)--items that are fundamental to the
     weapon system performance or items that could impact safety of the operating
     personnel) must be evaluated by the Service engineering support activities (ESAs)
     responsible for the part. Multiple ESAs can be responsible for the same parts.
     The DLA Deskbook states that:

                   Only those offers that are in the best interest of the Government
                   will be considered. At the time of publication of this document, the
                   minimum savings thresholds for evaluation were $200 if the item
                   was evaluated locally and an additional $1,200 for each ESA that
                   must be involved. If the alternate offer savings, do not meet or
                   exceed the threshold, coordinate with the buyer to determine if
                   further evaluation is in the best interest of the Government.

     For offers that meet the criteria, a technical specialist evaluates the data provided
     with the alternate offer and determines if the offeror’s product is equal to
     (identical or physically, mechanically, electrically, and functionally
     interchangeable) the desired part and meets the minimum needs of the
     Government. For noncritical parts that are determined to meet the minimum
     needs of the Government, the technical specialist identifies the quality provisions
     required to be added to the contract for alternate offers and provides the outcome
     of his review to the buyer.

     For CSIs and CAIs, the technical specialist prepares a DLA Form 339, “Request
     for Engineering Support,” to request source approval. The technical specialist
     then forwards a Source Approval Request (SAR) package to each appropriate



                                             1
ESA for review and approval, along with the offeror’s technical data and the
$1,200 fee DLA is required to pay for each part reviewed.

Public Law on Reevaluation Requirements. In 1988, Public Law 100-456,
section 805, establishes the requirement for qualifying the suppliers of parts that
are critical to the operation of aircraft and ships. Specifically, the public law
inserted the following section into title 10 of the United States Code.

              Section 2383, Procurement of Critical Aircraft and Ship Spare
              Parts: Quality Control. In procuring any spare or repair part that
              is critical to the operation of an aircraft or ship, the Secretary of
              Defense shall require the contractor supplying such part to provide
              a part that meets all appropriate qualification and contractual
              quality requirements as may be specified and made available to
              prospective offerors. In establishing the appropriate qualification
              requirements, the Secretary of Defense shall utilize those
              requirements, if available, which were used to qualify the original
              production part, unless the Secretary of Defense determines in
              writing that any or all such requirements are unnecessary.
In 1996, Public Law 104-106, section 803, repealed section 2383 of title 10 of the
United States Code. The House and Senate versions of the bill state the repeal
was:

              intended to assist the Department of Defense in shifting from
              reliance on outdated military specifications and standards to the use
              of modern industrial manufacturing methods that would ensure
              quality in critical spare parts.
In 2003, Public Law 108-136, section 802, reestablished the requirement for
qualifying suppliers. Specifically, the public law required the Secretary of
Defense to prescribe in regulations a quality control policy for the procurement,
modification, repair, and overhaul of aviation critical safety spare parts that
includes the requirement that:
              the head of the contracting activity for an aviation critical safety
              item enter into a contract for the procurement, modification, repair,
              or overhaul of such item only with a source approved by the design
              control activity in accordance with section 2319 of title 10, United
              States Code.
Guidance on Reevaluating Sources for CSIs and CAIs. Naval Air Systems
Command Instruction 4200.25D, “Management of Critical Application Items
Including Critical Safety Items,” June 20, 2002, states that alternate sources for
CSIs be reevaluated to ensure sources remain capable of delivering satisfactory
items if they have not delivered the specific item within 3 years of an anticipated
solicitation or if concerns exist regarding the product quality or either the
manufacturing location or process has changed. The instruction gives Navy ESAs
the authority to waive or relax the steps necessary for reevaluating a source if
deemed appropriate. The Navy instruction does not provide guidance or
requirements for reevaluating manufacturers of CAIs. The Air Force does not
have guidance that addresses reevaluating manufacturers of either CSIs or CAIs.
The Joint Aeronautical Commander’ Group, Policy Memorandum, “Management


                                         2
of Aviation Critical Safety Items,” August 28, 2002, adopts the reevaluation
requirement for sources of items critical to aviation safety but fails to establish
procedures for reevaluating CAIs.

History of Service & Sales, Inc. Service & Sales, Inc. has supplied parts to DoD
for more than 32 years. Initially, the contractor purchased Government surplus
material and resold the material back to the Government as needed. The
contractor also served as a supplier for Honeywell and other original equipment
manufacturers (OEMs). In addition, Honeywell gave Service & Sales, Inc.
permission to bid on Honeywell requirements that were advertised in the
commerce business daily. As a result, Service & Sales, Inc. started processing
and overhauling material and eventually moved into manufacturing. Figure 1
shows one of the product lines that Service & Sales, Inc. manufactures for sale to
the Government.




Figure 1. Tube Assembly Product Line.
In 1992, Honeywell filed a lawsuit against Service & Sales, Inc., to reacquire the
business Service & Sales, Inc. was then performing. Honeywell asked for
documented evidence that authorized the contractor to manufacture the parts.
Service & Sales, Inc. provided the requested documentation and filed a counter-
lawsuit. To avert the pending court action, Honeywell and Service & Sales, Inc.
negotiated a licensing agreement over the next several months.

President’s Small Business Agenda. In March 2002, the President outlined his
agenda for small business. Specifically, the President stated that small businesses
were “the backbone of the U.S. economy” and, therefore, should have access to
Government contracts. The President stated that Government contracting should
be accomplished through full and open competition and that large Federal
contracts should be broken down or unbundled “whenever practicable” so that
small businesses could compete. The President further stated that he wants to
eliminate the regulatory barriers to job creation, give small businesses a voice in
the complex and confusing Federal regulatory system, and consolidate the eight


                                      3
    civilian agency boards of contract appeals to ease the administrative burden on
    small businesses. The President also called for tax simplification, regulatory
    reform, and an expanded Government contracting program that would assist small
    businesses.


Objective
    The audit objective was to determine whether the DoD source approval process
    effectively approved Service & Sales, Inc. as a potential source of supply for
    spare parts included on a licensing agreement with Honeywell. We also reviewed
    the management controls as they relate to our audit objective. See Appendix A
    for a discussion of the scope, methodology, and management control review
    related to the objectives.




                                       4
            Source Approval Process for Small
               Business Manufacturers
            DLA and the Service ESAs did not effectively approve Service & Sales,
            Inc. as an alternate source of supply for 253 of 434 items included on a
            licensing agreement with Honeywell. In addition, DLA and the Service
            ESAs did not effectively approve Service & Sales, Inc. as an alternate
            source of supply for 19 of 28 other items that were previously supplied to
            DoD. The condition occurred because DLA:

                •   either improperly removed or never added Service & Sales, Inc. to
                    its list of approved manufacturers for 82 items previously supplied
                    to DoD and 171 items not previously supplied but included on the
                    licensing agreement;

                •   either improperly removed or never added Service & Sales, Inc. to
                    its list of approved manufacturers for 19 items previously supplied
                    to DoD that were not included on the licensing agreement;

                •   did not document why Service & Sales, Inc. was removed from its
                    list of approved manufacturers and did not notify the affected
                    parties, including the contractor; and

                •   in conjunction with the Service ESAs, did not develop adequate
                    and consistent guidance and procedures for either reevaluating
                    sources that were previously approved for CSIs and CAIs or
                    addressing source approval procedures for items on licensing
                    agreements with OEMs.

            As a result, DLA was generally procuring the items sole source from the
            OEM instead of procuring the items competitively and using a small
            business manufacturer.


Contractor Qualifications and Capabilities
     Service & Sales, Inc. manufacturers aerospace components and is located in
     Tempe, Arizona. Service & Sales, Inc. has a perpetual licensing agreement with
     Honeywell to manufacture thousands of items that are proprietary (sole source) to
     Honeywell. Service & Sales, Inc. also manufacturers CSIs and CAIs for various
     other OEMs. Service & Sales, Inc.’s quality control system conforms to the
     International Organization for Standardization (ISO) 9002:94 and Aerospace
     Basic Quality System (AS) 9000:98 standards. The Performance Review Institute
     issued the certification on August 17, 2001. The certification was scheduled to be
     upgraded to ISO 9001:2000 and AS9100 in November 2003. In addition,
     Government representatives conducted a site survey in November 2002 at the
     contractor’s facility and provided a favorable assessment of the contractor’s
     quality assurance program and manufacturing capabilities.



                                         5
Licensing Agreement. On March 5, 1993, Service & Sales, Inc. and Honeywell
entered into an agreement under which Service & Sales, Inc., became licensed on
a nonexclusive basis to use Honeywell technical data to manufacture certain parts
for sale to the Government. The agreement granted Service & Sales, Inc. the right
to manufacture for sale to DoD 958 base parts and their subcomponent parts. As
part of the agreement, the contractor was provided access to the latest revisions of
the licensed technical data for manufacturing the parts. Honeywell also agreed to
provide assistance for the covered parts, which included drawing interpretations
and test procedures. In addition, Honeywell agreed to share its approved source
list for subcontracted material with Service & Sales, Inc. No other affiliation
between the contractor and Honeywell exists. Honeywell accepts no liability or
responsibility for items manufactured by Service & Sales, Inc.

Approved Source of Supply for Other OEMs. Service & Sales, Inc. is an
approved supplier of both CSIs and CAIs for various OEMs. The OEMs include:
Aerojet, Boeing, Crestview Aerospace, Honeywell, Lockheed Martin, MD
Helicopter, Perkin Elmer, Raytheon, Simula Inc., and Talley Defense Systems.
Each OEM has its own method for surveying and approving sources. Some use
ISO and AS certifications for the basis of their approval process with little
additional work. In addition, on July 27, 2001, a representative of Lockheed
Martin performed a quality survey at Service & Sales, Inc. and determined that
the contractor met the requirements of Military Specification MIL-I-45208A,
“Inspection System Requirements,” which establishes requirements for contractor
inspection systems, and approved Service & Sales, Inc.

Navy Site Survey. In November 2002, representatives from the Naval Inventory
Control Point, Philadelphia performed a site survey at Service & Sales, Inc. to
assess the contractor’s manufacturing capabilities and quality assurance elements
to manufacture both CSIs and CAIs. Although prohibited by the Director of
Engineering Policy Management, Air Force Materiel Command from taking an
active role, representatives from the Air Force ESAs were also in attendance. The
group, including members of the audit team, toured the contractor’s facility and
held discussions with company officials. The group reviewed the licensing
agreement and the contractor’s quality control system and tested compliance with
the stated procedures. Prior to the site survey, the information that Service &
Sales, Inc. provided DLA and the Service ESAs lacked details on the specific
terms of the licensing agreement. As a result, DLA and the Service ESAs were
unaware of the level of access that Service & Sales, Inc. had been granted to the
parts’ technical data of the OEM. The Navy also performed two successful first
article tests and traceability studies. The findings/recommendations from the
Navy site survey stated:
           Service & Sales, Inc., has demonstrated that they can manufacture,
           assemble, and inspect a diverse line of both CSI (critical safety
           item) and CAI (critical application item) items. Their product line
           includes: Seals, Piston Rings, Tube Assemblies, Diaphragm
           Assemblies, Solenoid Valves, Cable Assemblies and various Electrical
           Counters and Shut off Valves. They have demonstrated their ability to
           manufacture a multiple line of Gas Turbine Accelerator Thermostats as
           well as Immersion Thermocouples. They also take pride in their ability




                                        6
                   to perform a complete functional test of these Thermostats and
                   Thermocouples.
                   Their manufacturing process was well documented from Contract
                   award to actual Shipping of the finished product. It is the general
                   consensus of the government team members that Service & Sales,
                   Inc., production and engineering capabilities and quality programs
                   are satisfactory. Service & Sales, Inc., shows great pride in their
                   product and workmanship. [emphasis added]
     A complete copy of the Navy site survey report is in Appendix E.


Identification as an Alternate Source
     DLA and the Service ESAs did not effectively approve Service & Sales, Inc. as
     an alternate source of supply for 253 of 434 items that were included on a
     licensing agreement with Honeywell. In addition, 19 of 28 other items not
     included on the licensing agreement but previously supplied to DoD were not
     approved. The annual demand for the parts is about $10.2 million. See Appendix
     D for information on the criticality of parts, the number of ESAs responsible for
     each part, and Service & Sales, Inc.’s source approval status. Table 1 and Table
     2 summarize the approval status.

     Table 1. Approval Status for Items Included on the Service &
                    Sales, Inc. Licensing Agreement with Honeywell


     Item Criticality                        Identified as Approved in DLA System

      Previously Supplied              Yes           No           Total        Percent

       Critical Safety                   7            2             9               77.8
       Critical Application            133           69           202               65.8
       Noncritical                      15           11            26               57.7

     Subtotal                          155           82           237               65.4

      Not Previously Supplied

       Critical Safety                  1              0            1           100.0
       Critical Application            25            146          171            14.6
       Noncritical                      0             25           25             0.0

     Subtotal                          26            171          197               13.2

       Total                           181           253          434               41.7




                                                7
                     Table 2. Approval Status for Items not on Licensing Agreement
                               that have been Previously Supplied to DoD


           Item Criticality                            Identified as Approved in DLA System

            Previously Supplied                  Yes           No           Total        Percent

             Critical Application                 8            18            26               30.8
             Noncritical                          1             1             2               50.0

             Total                                9            19            28               32.1


Items Included on Licensing Agreement
           Items Previously Supplied to DoD. DLA improperly removed or never added
           Service & Sales, Inc. to the approved manufacturers list for 821 parts included on
           the licensing agreement that it previously supplied to DoD, thus Service & Sales,
           Inc. was ineligible to receive orders for parts that it had previously supplied.
           Although DLA representatives could not give specific reasons why Service &
           Sales, Inc. was removed as an approved source, one of the technical specialists at
           DLA thought that the removal of Service & Sales, Inc. as an approved source may
           relate to Navy guidance for reevaluating previously approved sources. Navy
           guidance requires that sources for CSIs be reevaluated to ensure that sources
           remain capable of delivering satisfactory items if they have not delivered the
           specific item within 3 years of an anticipated solicitation or if there are concerns
           regarding product quality or the manufacturing location or process has changed.
           However, the Navy guidance does not provide specific procedures for
           reevaluating sources and did not indicate that a source’s approved status should
           be removed while the source’s manufacturing capability is being reevaluated.
           Further, the Navy guidance applies only to CSIs.

           Technical specialists at DLA stated that Service & Sales, Inc. may not have been
           added to the DLA list of approved manufacturers for items transferred from the
           Services as part of the consumable item transfer. In August 1991, the Services
           transferred management of consumable items to DLA. The process was
           conducted in two phases. The first phase, which ended in November 1995, placed
           approximately 760,000 items the Services previously controlled under DLA
           management. The second phase, which occurred between January 1996 and the
           beginning of 1998 when the Office of the Secretary of Defense declared the
           consumable item transfer over, placed approximately 152,000 more items under
           DLA management. Unfortunately, the procedures for transferring and
           maintaining the documentation that would support source approval were not
           always effective. As a result, source approval data were either lost, misplaced, or
           not forwarded to DLA. Consequently, Service & Sales, Inc. was not added to the
           list of approved manufacturers for items it previously supplied to the Services.


1
    2 CSIs, 69 CAIs, and 11 noncritical items.



                                                          8
           Service & Sales, Inc. previously supplied 542 or 65.8 percent of the 82 parts that
           were not approved directly to the Services prior to the consumable item transfers.
           For example, the Air Force procured spur gears (National Stock Number
           3020-00-425-6495), a CSI, directly from Service & Sales, Inc. prior to the item
           transferring to DLA. Specifically, Service & Sales, Inc. supplied 2,607 spur gears
           to the Air Logistics Center, Oklahoma City, Oklahoma, on two orders received in
           1987 and 1988. Service & Sales, Inc. also supplied 135 of the gears in 2002 to
           DLA (Columbus). Service & Sales, Inc. was identified as an approved source of
           supply on the 2002 order. However, on a February 19, 2003, a purchase request
           for 318 items, Service & Sales, Inc. was no longer listed as an approved source of
           supply. Consequently, Service & Sales, Inc. was ineligible to receive orders for a
           part it had successfully supplied to DoD on three other occasions (1987, 1988,
           and more recently in 2002). The technical specialists at DLA could not give
           specific reasons why Service & Sales, Inc. was removed as an approved source.

           In another example, Service & Sales, Inc. supplied wiring harness assemblies
           (National Stock Number 5995-00-707-8267), a CAI, to the Air Force (San
           Antonio Air Logistics Center, Texas) in 1984 and 11 times to DLA supply centers
           (Philadelphia and Richmond) between 1987 and 1998. On the 1998 order,
           Service & Sales, Inc. was identified as an approved source of supply. However,
           on a June 28, 2003, purchase request for 38 items, Services & Sales, Inc. was no
           longer listed as an approved source of supply. Consequently, Service & Sales,
           Inc. was ineligible to receive orders for a part that it had successfully supplied to
           DoD 12 times between 1984 and 1998 (768 parts) and was also the only source
           that supplied the part since 1987. Again, the technical specialists at DLA could
           not give specific reasons why Service & Sales, Inc. was removed as an approved
           source but reinstated the contractor as an approved source in July 2003.

           Nothing was uncovered that would support that Service & Sales, Inc. should not
           be approved as a source for these parts. No significant quality problems have
           been noted with the parts supplied by Service & Sales, Inc. Further, Service &
           Sales, Inc. is an approved source of supply for other OEMs and its quality control
           system conforms with ISO and AS standards. The Navy site survey also found
           that Service & Sales, Inc. had access to the actual drawings and the technical data
           for the parts and possessed the capability to manufacture the parts to DoD
           specifications. Thus, DLA needs to take immediate action to reinstate Service &
           Sales, Inc. as an approved source for the 82 items included on the licensing
           agreement with Honeywell that it previously supplied to DoD.

           Items Not Previously Supplied to DoD. DLA had not added Service & Sales,
           Inc. to the list of approved manufacturers for 1713 of 197 items included on the
           licensing agreement that had not been previously supplied to DoD. As previously
           stated, DLA and the Service ESAs lacked details on the specific terms of the
           licensing agreement. As a result, DLA and the Service ESAs insisted that Service
           & Sales, Inc. go through a complete SAR package review to obtain approval for
           supplying those parts because Service & Sales, Inc. had no documented
           procurement history with DoD that demonstrated Service & Sales, Inc. was

2
    1 CSI, 49 CAIs, and 4 noncritical items.
3
    146 CAIs and 25 noncritical items.



                                                 9
           capable of manufacturing the parts to DoD specifications. Complete SAR
           package reviews require that Service & Sales, Inc., for each part, obtain the
           drawing and technical data from the OEM, prepare and submit a SAR package,
           and have the data reviewed and then obtain approval from DLA and each Service
           ESA responsibility for the critical parts. Service & Sales, Inc. could then submit
           bids and perhaps receive an order to supply the parts.

           Requiring complete SAR package reviews for these parts no longer seems to be
           warranted. It seems a bit extensive for a contractor using the actual drawings and
           technical data of the OEM to manufacture the parts. Alternate sources do not
           generally have access to drawings and technical data of the OEM. Thus,
           contractors desiring to be an alternate source for items usually must develop their
           own technical data and drawings. Under those circumstances, wanting to
           compare the drawings and technical data of an alternate source to that of the OEM
           makes sense. However, we fail to understand why the Government would want to
           perform complete SAR package reviews for parts covered by the licensing
           agreement with Honeywell, because the Government would simply be comparing
           the actual drawings and technical data of the OEM to the actual drawings and
           technical data of the OEM. Thus, we see no value in doing this.

           Public Law 104-106, section 803, repealed the requirements of section 2383 of
           title 10 of the United States Code. The intent was to lighten the DoD regulatory
           requirements by allowing use of modern industrial manufacturing methods for
           ensuring quality in critical spare parts. Thus, in light of Service & Sales, Inc.’s
           access to the actual drawings and technical data for the 171 licensed parts and all
           that is now known about the manufacturing capabilities of Service & Sales, Inc.,
           DLA, in conjunction with the Service ESAs, should develop and use a
           streamlined process to approve Service & Sales, Inc. as an alternate source of
           supply for the items.


Item Not Included on Licensing Agreement
           DLA either improperly removed or never added Service & Sales, Inc., to the list
           of approved manufacturers for 194 other parts not included on the licensing
           agreement but previously supplied to DoD, thus Service & Sales, Inc. was
           ineligible to receive orders for parts that it had previously supplied. Service &
           Sales, Inc. supplied 155 of the parts, or 78.9 percent, directly to the Services prior
           to the consumable item transfers. For example, Service & Sales, Inc. supplied
           dummy connector plugs (National Stock Number 5935-01-229-5586), a CAI, to
           the Air Force (San Antonio Air Logistics Center) in 1989 and 4 times to DLA
           between 1997 and 2001. On an October 2001 order for supplies, Service & Sales,
           Inc. was identified as an approved source of supply. However, on a November
           27, 2001, purchase request for 26 items, Service & Sales, Inc. was no longer
           listed as an approved source of supply. Consequently, Service & Sales, Inc. was
           ineligible to receive orders for a part that it had successfully supplied 5 times

4
    18 CAIs and 1 noncritical item.
5
    14 CAIs and 1 noncritical item.



                                                10
    between 1989 and 2001 (131 parts) to DoD. The technical specialists at DLA
    could not give specific reasons why Service & Sales, Inc. was removed as an
    approved source but reinstated the contractor as an approved source and awarded
    Service & Sales, Inc, an order to supply 31 plugs on June 26, 2003.

    Requiring Service & Sales, Inc. to go through complete SAR package reviews to
    obtain approval for these parts seems to be a bit extensive in light of all that is
    now known about the contractor’s capabilities. Much of the information included
    in SAR packages relates to the contractor’s quality and manufacturing processes,
    and as such, has already been evaluated by the Government. The Navy conducted
    a site survey of Service & Sales, Inc.’s facility and provided a favorable
    assessment of the contractor’s quality assurance program and manufacturing
    capabilities. We do not understand why the Government would want to expend
    any more resources to reassess the contractor’s quality and manufacturing
    processes before approving Service & Sales, Inc. as a source of supply. To
    reevaluate Service & Sales, Inc. for the 19 parts that DLA shows Service & Sales,
    Inc. not approved to supply in this manner would cost $3,800 (19 x $200) for
    DLA to initiate the packages and $39,600 (33 x $1,200) for the 33 ESA reviews
    required, not to mention the cost the contractor would incur to prepare the SAR
    packages. In fact, the SAR package for one part must be reviewed and approved
    by 5 different ESAs before Service & Sales, Inc. will be eligible to receive orders
    to supply the part. We see no the value in performing this level of review for
    these parts.

    The intent was to lighten the DoD regulatory requirements by allowing use of
    modern industrial manufacturing methods for ensuring quality in critical spare
    parts. Thus, in light of all that is now known about the manufacturing capabilities
    of Service & Sales, Inc., DLA, in conjunction with the Service ESAs, should
    develop and use a streamlined process to approve Service & Sales, Inc. as an
    alternate source of supply for the 19 previously supplied non-licensed items that
    DLA shows Service & Sales, Inc. not approved to supply.


Documentation and Notification of Source Removal
    DLA failed to document why Service & Sales, Inc. was removed as an approved
    source and notify the contractor. Section 2319 of title 10 of the United States
    Code defines a qualification requirement.

                  Qualification Requirement - a requirement for testing or other
                  quality assurance demonstration that must be completed by an
                  offeror before award of a contract.
    Section 2319 also provides procedures for establishing qualification requirements.

                  (b) (6) ensure that a potential offeror seeking qualification is
                  promptly informed as to whether qualification is attained and, in the
                  event qualification is not attained, is promptly furnished specific
                  information why qualification was not attained.




                                            11
    Federal Acquisition Regulation, Subpart 9.2, “Qualification Requirements,”
    provides policies and procedures regarding qualification requirements.
    Section 9.207, “Changes in Status Regarding Qualification Requirements,” states:
                  The agency shall, however, promptly notify the affected parties if a
                  product or source is removed from a QPL [Qualified Product List],
                  QML [Qualified Manufacturers List], or QBL [Qualified Bidders
                  List], or will no longer be identified as meeting the standards
                  specified for qualification. This notice shall contain specific
                  information why the product or source no longer meets the
                  qualification requirement.
    As previously described, technical specialists at DLA were unable to provide
    specific reasons why Service & Sales, Inc. was removed from the list of approved
    manufacturers. Further, the technical specialists failed to notify Service & Sales,
    Inc. that it was no longer considered an approved source. We believe it to be a
    good business practice to document why a source no longer meets the
    requirements for approval and to notify the contractor of the change in status. As
    such, DLA should establish procedures to document why a source is removed
    from the list of approved manufacturers and notify the source.


Reevaluating Approved Sources
    Guidance for Reevaluating Approved Sources. DLA and the Service ESAs did
    not develop adequate and consistent guidance and procedures for either
    reevaluating previously approved sources for CSIs and CAIs or addressing source
    approval requirements for items that were included on licensing agreements with
    OEMs. While the Navy had limited guidance relating to reevaluating approved
    sources for CSIs and no guidance relating to reevaluating sources for CAIs, the
    Air Force had no written guidance that related to reevaluating approved sources
    for either the CSIs or the CAIs.

    Naval Air Systems Command Instruction 4200.25D, “Management of Critical
    Application Items Including Critical Safety Items,” June 20, 2002, states that
    alternate sources for CSIs must be reevaluated to ensure they remain capable of
    delivering satisfactory items if the source has not delivered the item within
    3 years of an anticipated solicitation or if concerns regarding product quality exist
    or the manufacturing location or process has changed. The instruction gives the
    Navy ESAs authority to waive or relax the necessary steps for reevaluating a
    source if deemed appropriate. The Navy instruction does not provide any
    guidance or requirements for reevaluating manufacturers of CAIs or take into
    consideration manufacturers using actual OEM technical data to manufacture
    parts versus their own alternate data developed in-house.

    Other Complications. Complicating the matter is that multiple ESAs are
    responsible for the same parts. In those cases, Service & Sales, Inc. must obtain
    approval from each ESA before Service & Sales, Inc. is allowed to bid on an
    order to supply that part. Figure 2 shows that to get the 71 previously supplied
    critical licensed parts that DLA shows Service & Sales, Inc. not approved for
    reevaluated would require 118 separate reviews by the ESAs.


                                            12
                                             4 ESAs
                               3 ESAs
                                            (2 items)
                              (11 items)
                                              2.8%
                                15.5%




                                                             Single ESA
                                             2 ESAs           (39 items)
                                            (19 items)          54.9%
                                              26.8%




           Figure 2. ESA Approvals Required to Reevaluate Parts.

           During the audit and based on the factors previously described, we attempted to
           obtain agreement between the Navy and the Air Force on simplified procedures
           for reevaluating Service & Sales, Inc. on the 71 critical licensed parts previously
           supplied for which Service & Sales, Inc. was either improperly removed or never
           added to the list of approved manufacturers, but were unsuccessful. While the
           Navy showed flexibility with the reevaluation process for the critical parts and
           recommended the site survey, the Air Force Materiel Command would settle for
           nothing less than a complete SAR package review for each part and the
           corresponding $1,200 service fee for each item. To reevaluate the 71 parts would
           cost $14,200 (71 x $200) for DLA to initiate the packages and $141,600 (118 x
           $1,200) for the 118 ESA reviews required, not to mention the cost the contractor
           would incur to prepare the SAR packages.

           The manager for the Technical and Quality Policy Division estimated that DLA
           manages about 9,000 CSIs6 and more than 1.2 million CAIs. With multiple ESAs
           responsible for the same parts and multiple sources approved to manufacture the
           same parts, we calculate the cost of having only one ESA reevaluate one
           approved source for the critical items would cost DoD approximately $1.69
           billion. We do not see the benefit of devoting such a magnitude of resources to
           reevaluating approved sources for CAIs on a one-for-one basis, particularly those
           with licensing agreements that provide access to OEM data for use in
           manufacturing the parts and had no significant problems or deficiencies noted
           with the quality of the parts supplied.



6
    Figure does not include the Air Force’s CSIs.



                                                        13
    DLA needs to develop, in conjunction with the Service ESAs, consistent and
    realistic guidance and procedures for reevaluating sources for CSIs and CAIs and
    for addressing source approval requirements for items included on licensing
    agreements with OEMs.


Conclusion
    We found no flexibility in the source approval and reevaluation process for
    Service & Sales, Inc., even though the small business manufacturer had
    previously supplied the parts to DoD, had a licensing agreement with the OEM
    that provided access to the technical data needed to manufacturer the parts, had
    successfully passed a site survey the Navy conducted, and had a proven history of
    supplying quality parts. The inflexible process of evaluating and reevaluating
    each part exactly the same as an alternate data package, which provides data
    developed by someone other than the OEM, was unreasonable and neither
    supports the President’s small business agenda nor the DoD goals ensuring that as
    many as possible alternate quality sources of supply exist to increase competition
    and, ultimately, reduce support costs.

    DLA, in conjunction with the Service ESAs, needs to develop a process for
    evaluating and reevaluating sources that maintains the integrity of the process and
    also provides value as well as encourages small business participation to increase
    competition. The evaluation and reevaluation process should vary with the
    criticality of the part and consider other factors such as whether the supplier has
    previously supplied the part, does the supplier have access to OEM technical data,
    did the supplier successfully pass a site survey, and does the supplier have a
    history of providing quality parts.


Management Comments on the Finding and Audit Response
    Defense Logistics Agency Comments. DLA stated that the report did not
    address the need to assess the contractor’s capability in urging that a streamlined
    approach be adopted to approve Service & Sales, Inc. to supply licensed items not
    previously supplied to DoD. DLA also stated that the report did not address the
    need for the contractor to demonstrate access to the technical data for items not
    covered by the Honeywell agreement in urging that a streamlined approach be
    adopted to approve the contractor to supply non-licensed parts not previously
    supplied to DoD.

    Audit Response. The audit never suggested that the measures currently
    employed to ensure that items are procured only from capable sources be
    subverted. The audit attempted to apply some common sense to the process in
    light of all that is known and has been learned through the audit about Service &
    Sales, Inc. Through the site survey, the Government determined that the licensing
    agreement grants Service & Sales, Inc. complete access to OEM technical data for
    the covered items. The Government also determined that Service & Sales, Inc.
    possessed the ability to manufacture, assemble, and inspect a diverse line of both


                                        14
    critical safety items and critical application items. To apply the entire process to
    obtain information that is already known and in the possession of the Government
    did not make sense. Further, we see no value in the Services performing identical
    assessments of a contractor’s ability to manufacture an item to DoD
    specifications, therefore, we suggested adopting a streamlined process.


Recommendations, Management Comments, and Audit
  Response
    We recommend that the Director, Defense Logistics Agency:

          1. Take immediate action to reinstate Service & Sales, Inc. as an
    approved source for the 82 licensed items previously supplied to DoD.

    Defense Logistics Agency Comments. DLA partially concurred, stating that the
    Navy agreed to have Service & Sales, Inc. reinstated as an approved source for
    the items that the Navy was listed as the only user. However, the Air Force has
    agreed to reinstate Service & Sales, Inc. as a source for the items only if there is a
    current Form 339 and technical data package in the possession of DLA. DLA
    stated that the Air Force items failing to meet those conditions will go through a
    simplified process before Service & Sales, Inc. is reinstated as an approved
    source.

    Audit Response. The DLA comments are partially responsive. Although DLA
    has established procedures to reinstate Service & Sales, Inc. as an approved
    source for the items that the Navy or the Air Force is listed as the only user, it has
    not addressed what procedures will be used to approve Service & Sales, Inc. as a
    source for parts that require the review by multiple Services. We request that
    DLA provide additional comments on the final report to clarify what steps will be
    taken to get Service & Sales, Inc. approved as a source for those parts.

           2. Develop and use, in conjunction with the Service Engineering
    Support Activities, a streamlined process that considers licensing agreements
    with original equipment manufacturers to approve Service & Sales, Inc. as
    an alternate source of supply for the 171 licensed items not previously
    supplied to DoD.

    Defense Logistics Agency Comments. DLA partially concurred, stating that it
    will take appropriate action to approve Service & Sales, Inc. as an alternate
    source for the active items not previously supplied to DoD that are covered under
    the licensing agreement. The Navy agreed to use a streamlined process to
    approve Service & Sales, Inc. for the items that the Navy was listed as the only
    user. The normal process will be used to approve Service & Sales, Inc. as a
    source for all other items.




                                          15
       3. Develop and use, in conjunction with the Service Engineering
Support Activities, a streamlined process to approve Service & Sales, Inc. as
an alternate source of supply for the 19 previously supplied items not
included on the licensing agreement with Honeywell.

Defense Logistics Agency Comments. DLA partially concurred, stating that it
will take the appropriate action to approve Service & Sales, Inc. as an alternate
source for the 19 items not covered under the licensing agreement but previously
supplied to DoD. The Navy agreed to consider a streamlined process to approve
Service & Sales, Inc. as a source for the items that the Navy is listed as the only
user. However, the Air Force has agreed to reinstate Service & Sales, Inc. as a
source for the items only if there is a current Form 339 and technical data package
in the possession of DLA. DLA stated that the Air Force items failing to meet
those conditions will go through a simplified process to approve Service & Sales,
Inc. as a source.

Audit Response. The DLA comments are partially responsive. Although DLA
has established procedures for Service & Sales, Inc. to be approved as a source
for the non-licensed items that the Navy or the Air Force is listed as the only user,
it has not addressed what procedures will be used to approve Service & Sales, Inc.
as a source for parts that require the review by multiple Services. We request that
DLA provide additional comments on the final report to clarify what steps will be
taken to get Service & Sales, Inc. approved as a source for those parts.

      4. Establish procedures that document why an approved source is
removed and notify the source.

Defense Logistics Agency Comments. DLA concurred, stating that actions to
notify an approved source when they are removed from the item record have been
initiated. DLA also suggested that notification be restricted to just the source as
“affected parties” is too broad and cannot be defined.

Audit Response. The DLA comments are responsive. We agree that “affected
parties” is too broad and have, therefore, revised the recommendation
accordingly.

       5. Develop, in conjunction with the Service Engineering Support
Activities, consistent and realistic guidance and procedures for reevaluating
sources for critical safety items and critical application items and for
addressing source approval requirements for items included on licensing
agreements with original equipment manufacturers.

Defense Logistics Agency Comments. DLA concurred, stating that the Joint
Aeronautical Commanders Group Memorandum on Management of Aviation
Critical Safety Items adequately addresses the procedures for source reevaluation
of critical safety items. DLA, in conjunction with the Service engineering support
activities, also stated they have initiated action to develop guidance and
procedures to revalidate critical application items and to approve sources for
items under acceptable licensing agreements with original equipment
manufacturers.



                                     16
Appendix A. Scope and Methodology
   We reviewed the DoD source approval process to determine if the process
   effectively approved Service & Sales, Inc., as a potential source of supply for
   spare parts included on a licensing agreement with Honeywell. Specifically, we
   reviewed applicable guidance related to critical safety parts and source approval.
   Additionally, by interviewing buyers, inventory managers, and quality assurance
   and technical specialists at DLA supply centers in Columbus, Philadelphia, and
   Richmond, we determined how the source approval process works. We
   interviewed senior equipment specialists, supply analysts, and the head of Source
   Development at the Naval Inventory Control Point, Philadelphia. We also
   participated in a site survey, with representatives from the Air Force and Navy
   ESAs and the Defense Contract Management Agency, at Service & Sales, Inc.’s
   manufacturing plant in Tempe, Arizona.

   Further, we analyzed data on 462 parts that DoD either purchased from Service &
   Sales, Inc., in the past or were included on the Honeywell Licensing Agreement.
   Specifically, we focused on 453 parts that had an estimated FY 2002 annual
   demand of $1,000 or greater and 9 other parts that we added to our analysis at the
   request of Service & Sales, Inc. The 462 parts had an estimated annual demand
   of $10.2 million. Using data we extracted from the DLA Federal Logistics
   Information and Standard Automated Materiel Management systems, we
   identified which of the 462 parts Service & Sales, Inc., was approved to supply.
   Further, we identified the ESAs with responsibility over the parts. We also used
   procurement history extracted from Haystack Online for Windows to identify the
   extent to which Service & Sales, Inc. supplied the parts to DoD in the past. We
   reviewed the Automated Best Value System ratings and product quality
   deficiency reports that the DLA supply centers in Columbus, Philadelphia, and
   Richmond had for Service & Sales, Inc.

   We performed this audit from April 2002 through October 2003, in accordance
   with generally accepted government auditing standards.

   Use of Computer-Processed Data. To perform the work, we relied on
   computer-processed data from the Navy, DLA, and commercial sources. We
   identified approved sources from Federal Logistics Information and Standard
   Automated Materiel Management systems and determined which items that
   Service & Sales, Inc. had previously supplied to the DoD from procurement
   history information obtained from a commercial system (Haystack Online for
   Windows). We also used data from the DLA Automated Best Value System to
   assess past contractor performance. The computer-processed data and
   procurement history data were determined reliable based on a comparison to
   source data and computer output. We did not find significant errors that would
   preclude the use of the computer-processed data to meet the audit objectives or
   that would change the conclusions reached in the report.

   GAO High-Risk Area. The GAO has identified several high-risk areas in the
   DoD. This report provides coverage of the Defense Contract Management area.




                                       17
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DLA and the Service ESAs controls over the DoD source approval
    process. Specifically, we reviewed the controls for removing and reevaluating
    approved sources of supply. Because we did not identify a material weakness, we
    did not assess management’s self-evaluation.

    Adequacy of Management Controls. Although not the most effective and
    efficient to implement, the DLA and Service ESA controls over the DoD source
    approval process were found to be adequate. Compliance with the controls will
    provide reasonable assurance that DoD procures spare parts only from sources
    that are capable of supplying parts to DoD specifications.




                                      18
Appendix B. Prior Coverage
      During the last 5 years, the General Accounting Office has issued two audit
      reports and the IG DoD has issued two evaluation reports dealing with the DoD
      source approval process and small business procurement.

GAO
      General Accounting Office Report No. GAO-01-119, “Small Business: Trends in
      Federal Procurement in the 1990s,” January 18, 2001

      General Accounting Office Report No. NSIAD-98-191, “Defense Acquisition:
      Rationale for Imposing Domestic Source Restrictions,” July 17, 1998

IG DoD
      IG DoD Report No. D-2002-090, “Supply Inventory Management: Evaluation of
      the Defense Supply Center Columbus Qualified Products List and Qualified
      Manufacturers List Program,” May 14, 2002

      IG DoD Report No. D-2002-013, “Evaluation Report: The Defense Supply
      Center Richmond Qualified Products List Program,” November 2, 2001




                                         19
Appendix C. Hotline Allegations
   Allegation 1: DLA placed parts for which Service & Sales, Inc. was an approved
   alternate source or that were contained in its licensing agreement on a sole-source
   contract with Honeywell, the original manufacturer of the parts.

   Audit Results. The allegation was substantiated. DLA placed 21 parts that were
   contained on Service & Sales, Inc.’s licensing agreement on a sole-source
   contract with Honeywell. That occurred because the DLA data inaccurately
   showed each item as a sole source to Honeywell. During the audit, DLA removed
   from the contract 9 of the 21 parts and will remove the remaining 12 parts once
   Service & Sales, Inc. receives source approval from the ESA. DLA also updated
   its database to reflect that Service & Sales, Inc. is an alternate source for the parts
   and is verifying future additions to the sole-source contract by providing the list
   of parts to Service & Sales, Inc. for review prior to negotiating with Honeywell.

   Allegation 2: DLA inappropriately removed Service & Sales, Inc., as a potential
   source because it had not supplied the item to DoD in the last 36 months.

   Audit Results: The allegation was substantiated. The Naval Air Systems
   Command and the Naval Inventory Control Point, Philadelphia issued a draft
   Memorandum of Agreement, “Defense Logistics Agency (DLA) Management of
   Naval Aviation Critical Safety Items (CSIs) and Defense Supply System Center
   Richmond (DSCR) Oversight Program,” June 3, 2002, to DLA. In the draft
   memorandum, the Navy directs that DLA buy from only the sources the Navy
   listed for the parts. Therefore, DLA removed the sources that were not listed by
   the Navy from its list of qualified manufacturers. Further, the Joint Aeronautical
   Commanders Group Instruction on the management of CSIs states that alternate
   sources for CSIs shall be reevaluated to ensure that sources remain capable of
   delivering satisfactory parts if those sources have not delivered or repaired/
   overhauled the specific CSI within the last 36 months, or 3 years of an anticipated
   solicitation. Of the items we reviewed, only 10 were categorized as CSIs.
   However, DLA incorrectly applied the instruction beyond CSIs to remove
   alternate sources from the qualified manufacturers list for CAIs. Neither the Joint
   Aeronautical Commanders Group Instruction, nor the Naval Air Systems
   Command Instruction, nor the draft memorandum of agreement explicitly granted
   DLA the authority to remove alternate sources beyond CSIs.

   Allegation 3: The source approval data used by DLA was not accurate and data
   loss occurred during logistics transfers.

   Audit Results: The allegation was substantiated. The audit identified instances
   where the DLA data inaccurately portrayed the sources that Naval Inventory
   Control Point, Philadelphia had approved to supply an item. Further, DLA
   officials stated that source approval data was lost when responsibility for parts
   was transferred from the Services to DLA.

   Allegation 4: DLA has no directive or regulation from the ESA that requires it to
   remove the “approved source” designation, and DLA was not complying with



                                         20
Federal Acquisition Regulation Part 9, Subpart 207, “Changes in Status
Regarding Qualification Requirements.”

Audit results: The allegation was partially substantiated. Both Naval Air
Systems Command and Naval Inventory Control Point, Philadelphia directed that
DLA remove sources and procure requirements from the sources Navy listed for
CSIs. However, DLA removed Service & Sales, Inc. as an alternate source for
CAIs, as well. For CSIs, DLA did provide a written explanation for removing
source approval in compliance with Federal Acquisition Regulation Part 9,
Subpart 207.

Allegation 5: DLA inappropriately removed Service & Sales, Inc., as a source at
the request of AeroControlex who purchased a product line from Honeywell.

Audit Results: The allegation was not substantiated. In March 2002,
AeroControlex Group purchased the lube and scavenge pump product line from
Honeywell. However, 16 parts from the product line sale were covered under the
Service & Sales, Inc. licensing agreement with Honeywell. Additionally, the 16
parts are used in more than 1 product application (propulsion applications, gear
box applications, and lube and scavenge pump applications). AeroControlex
received only the rights to manufacture the 16 parts for lube and scavenge pump
applications. The rights of Service & Sales, Inc. under the licensing agreement
are for all applications of the 16 parts. According to Honeywell officials,
Honeywell and Service & Sales, Inc. should not be removed from any
solicitations for the 16 parts. We reviewed the DLA data for the 16 parts in
question. No evidence existed that supported the allegation that Service & Sales,
Inc. was removed at the request of AeroControlex. According to DLA, Service &
Sales, Inc. was an approved source for 6 of the 16 parts in question.




                                   21
Appendix D. Index of Reviewed Parts

Index D-1. Licensed Parts With Prior Contracts

                             Service & Sales, Inc.
    National                      Contracts          DLA      DLA      Previously Supplied   ESAs Responsible
                                                                     1
  Stock Number Criticality   Last Buy    Number      Center Approved       To Services           For Part
 1560010541685    CAI         1996         3         DSCR     Yes             Yes                   1
 1650001998586    CAI         2003         8         DSCR     Yes             Yes                   1
 1650003690224    NC          1995         1         DSCR     Yes              No                   1
 1650004433178    NC          2000         5         DSCR      No             Yes                   2
 1660003110049    CAI         1999         5         DSCR     Yes             Yes                   1
 1660003738320    CAI         1997         5         DSCR     Yes             Yes                   1
 1660004591606    CAI         2003         5         DSCR     Yes              No                   1
 1660004866302    NC          1996         1         DSCR      No             Yes                   1
 1660006590784    CAI         1988         1         DSCR      No             Yes                   2
 1660008874335    CSI         2001         2         DSCR     Yes              No                   1
 1660009075460    CAI         1992         1         DSCR      No             Yes                   1
 1660011327201    CAI         2001         4         DSCR     Yes             Yes                   1
 1680012322938    CAI         1996         3         DSCR     Yes             Yes                   1
 2805001262626    NC          2002         1         DSCC      No              No                   2
 2805001750555    NC          1988         3         DSCC     Yes              No                   2
 2805011490703    CAI         2001         5         DSCC     Yes              No                   2
 2835000177939    CAI         1991         2         DSCR     Yes              No                   1
 2835000402951    CAI         2003         2         DSCR     Yes             Yes                   2
 2835000766514    CAI         2003         4         DSCR     Yes             Yes                   3
 2835001111475    CAI         1995         4         DSCR     Yes             Yes                   1
 2835001245508    CAI         2002         5         DSCR     Yes             Yes                   1
 2835002159559    CAI         1988         2         DSCR     Yes             Yes                   3
 2835002159579    CAI         2002         6         DSCR      No             Yes                   3
 2835002251638    CAI         1984         1         DSCR      No             Yes                   2
 2835002989311    CAI         2002         7         DSCR     Yes             Yes                   1
 2835003021020    CAI         1998         4         DSCR     Yes             Yes                   1
 2835003134292    CAI         2003         6         DSCR     Yes             Yes                   1
 2835003150132    CAI         1990         2         DSCR      No             Yes                   1
 2835003205625    CAI         1996         6         DSCR     Yes             Yes                   1
 2835004278915    CAI         1982         1         DSCR      No             Yes                   1
 2835004945701    CAI         2002         3         DSCR     Yes             Yes                   2
 2835004945702    CAI         1991         2         DSCR      No             Yes                   2
 2835004947656    CAI         1982         1         DSCR      No             Yes                   2
 2835005233057    CAI         1996         3         DSCR      No             Yes                   1
 2835005560573    NC          1996         2         DSCR     Yes             Yes                   1
 2835005701692    CAI         1995         2         DSCR     Yes             Yes                   4
 2835006013206    CAI         1989         2         DSCR      No             Yes                   1
 2835006074501    CAI         1984         4         DSCR      No             Yes                   1
 2835006129447    CAI         1992         3         DSCR     Yes             Yes                   1



                                                      22
                            Service & Sales, Inc.
   National                      Contracts          DLA      DLA     Previously Supplied   ESAs Responsible
 Stock Number Criticality   Last Buy    Number      Center Approved1     To Services           For Part
2835006953394    CAI         2002         2         DSCR     Yes            Yes                   3
2835007018985    CAI         2001         6         DSCR     Yes            Yes                   3
2835007756696    CAI         1986         2         DSCR      No            Yes                   2
2835010031392    NC          1990         1         DSCR     Yes            Yes                   1
2835010038986    CAI         1995         3         DSCR      No            Yes                   1
2835010139156    CAI         1989         1         DSCR      No            Yes                   3
2835010191192    CAI         1988         2         DSCR     Yes            Yes                   1
2835010370039    CAI         1983         2         DSCR     Yes            Yes                   1
2835010371997    CAI         2000         2         DSCR     Yes             No                   1
2835010972963    NC          1994         2         DSCR      No            Yes                   1
2835011829865    CAI         1995         3         DSCR     Yes            Yes                   2
2910000145532    CAI         1997         9         DSCC     Yes             No                   4
2910002251676    CAI         2003         8         DSCC     Yes            Yes                   1
2910002528053    CAI         1996         2         DSCC      No             No                   2
2910002528055    CAI         2002         11        DSCC     Yes             No                   1
2910003158305    CAI         2001         11        DSCC     Yes             No                   4
2910013486418    NC          1995         1         DSCC      No             No                   1
2915004194410    CAI         2002         10        DSCR     Yes             No                   2
2920000214946    CAI         1987         1         DSCC      No             No                   3
2920004842173    CAI         1987         2         DSCC      No             No                   2
2995000160989    CAI         2002         4         DSCR     Yes             No                   2
2995001153522    CAI         1989         1         DSCR      No            Yes                   1
2995007725864    CAI         1999         2         DSCR     Yes            Yes                   1
2995008918864    CAI         1985         2         DSCR      No            Yes                   2
2995011903676    CAI         2002         2         DSCR     Yes            Yes                   1
3010003374827    CAI         2003         5         DSCC     Yes             No                   1
3010005185974    CAI         1988         1         DSCC      No            Yes                   1
3010009925492    CAI         1986         3         DSCC      No             No                   2
3010012151847    NC          2002         7         DSCC     Yes             No                   3
3010013156149    CAI         2002         3         DSCC     Yes            Yes                   1
3020004256495    CSI         2002         3         DSCC      No            Yes                   2
3020010057900    CAI         1997         2         DSCC     Yes            Yes                   1
3040002159542    CSI         2003         4         DSCC     Yes            Yes                   3
3040002294077    CAI         2002         8         DSCC     Yes             No                   1
3040003363571    CAI         2002         2         DSCC     Yes             No                   2
3040007729935    CAI         2002         4         DSCC     Yes            Yes                   3
3040010252832    CSI         1999         6         DSCC     Yes            Yes                   2
3110003329110    CAI         2003         4         DSCR     Yes             No                   1
3110010120359    CAI         1995         2         DSCR      No            Yes                   3
3120009163547    NC          1984         2         DSCR      No            Yes                   2
3940007310051    NC          2002         6         DSCP     Yes             No                   3
3950002369936    CAI         2002         6         DSCC     Yes             No                   1
4310000093753    CAI         1991         1         DSCC     Yes             No                   2
4310006216339    CAI         1999         1         DSCC     Yes             No                   3
4310011789679    CAI         2000         4         DSCC     Yes             No                   1



                                                     23
                            Service & Sales, Inc.
   National                      Contracts          DLA      DLA     Previously Supplied   ESAs Responsible
 Stock Number Criticality   Last Buy    Number      Center Approved1     To Services           For Part
4310011837171    CAI         2001         4         DSCC     Yes             No                   1
4320009390503    CAI         2002         7         DSCC     Yes             No                   2
4320010982766    CAI         1996         2         DSCC     Yes             No                   1
4330000083584    CAI         1997         1         DSCC     Yes             No                   3
4330006129445    CAI         2002         6         DSCC     Yes             No                   1
4330012724001    CAI         2002         6         DSCC     Yes             No                   1
4710001111476    CAI         2002         9         DSCC     Yes             No                   1
4710002935257    CAI         1993         2         DSCC      No            Yes                   1
4710006044503    CAI         2000         1         DSCC      No             No                   3
4710007818720    CAI         2001         3         DSCC     Yes             No                   2
4710008303076    CAI         2002         5         DSCC     Yes             No                   1
4710009502714    CAI         2001         2         DSCC     Yes             No                   2
4710009654883    CAI         2002         2         DSCC     Yes            Yes                   3
4710010276236    CAI         2002         3         DSCC     Yes            Yes                   1
4710010333349    CAI         1989         3         DSCC      No            Yes                   1
4710010344803    CAI         1990         3         DSCC      No            Yes                   1
4710010352222    CAI         2000         3         DSCC     Yes             No                   1
4720002250573    CAI         1998         2         DSCC     Yes             No                   1
4720006249414    CAI         2002         2         DSCC     Yes             No                   3
4730000493573    CAI         2001         4         DSCC      No             No                   4
4730001106893    CAI         2002         7         DSCC     Yes            Yes                   1
4730001115816    CAI         2000         4         DSCC     Yes            Yes                   1
4730006597910    CAI         2002         7         DSCC     Yes             No                   2
4730007564479    CAI         2002         4         DSCC      No             No                   1
4730008552774    CSI         2002         2         DSCC     Yes             No                   1
4730008859705    CAI         1993         10        DSCC     Yes             No                   4
4730009082529    CAI         2002         2         DSCC      No             No                   3
4730012179928    CAI         1996         3         DSCC     Yes            Yes                   1
4810000161067    CAI         1999         3         DSCC     Yes             No                   1
4810001214704    CAI         1997         4         DSCC     Yes            Yes                   1
4810001322031    CAI         1999         2         DSCC     Yes             No                   1
4810002042027    CAI         1987         1         DSCC      No            Yes                   1
4810003081297    CAI         1988         1         DSCC     Yes            Yes                   1
4810003149695    CAI         2002         5         DSCC     Yes             No                   1
4810003515520    NC          2001         1         DSCC      No             No                   1
4810003548560    CAI         2002         6         DSCC     Yes            Yes                   1
4810003646730    NC          2000         1         DSCC     Yes             No                   1
4810004688873    CAI         1993         2         DSCC     Yes            Yes                   1
4810006523407    CAI         2002         4         DSCC     Yes             No                   3
4810008074074    CAI         2002         3         DSCC     Yes             No                   2
4810010141908    CSI         2002         2         DSCC     Yes            Yes                   2
4810010191593    CAI         2000         4         DSCC     Yes            Yes                   3
4810010191658    CAI         2002         5         DSCC     Yes            Yes                   1
4810010252903    CAI         2001         3         DSCC     Yes             No                   5
4810011123650    CAI         1998         3         DSCC     Yes             No                   3



                                                     24
                            Service & Sales, Inc.
   National                      Contracts          DLA      DLA     Previously Supplied   ESAs Responsible
 Stock Number Criticality   Last Buy    Number      Center Approved1     To Services           For Part
4810012125275    CAI         2002         4         DSCC     Yes            Yes                   1
4820000516928    NC          2001         2         DSCC     Yes            Yes                   1
4820001233034    CAI         2003         8         DSCC     Yes            Yes                   1
4820001233499    CAI         1988         1         DSCC      No            Yes                   1
4820002754279    NC          2003         7         DSCC     Yes            Yes                   1
4820002950778    CAI         2002         3         DSCC     Yes             No                   1
4820003738286    CAI         2002         4         DSCC     Yes            Yes                   1
4820004385010    CAI         2001         1         DSCC     Yes             No                   3
4820004942879    CAI         1985         1         DSCC      No            Yes                   1
4820005314136    CAI         2000         1         DSCC     Yes             No                   1
4820006059615    CAI         2001         5         DSCC     Yes             No                   2
4820006399685    CSI         2002         5         DSCC     Yes             No                   2
4820007889178    CAI         2002         6         DSCC     Yes             No                   4
4820008022041    CAI         1995         1         DSCC     Yes             No                   3
4820008267192    CSI         1985         1         DSCC      No             No                   2
4820008693135    CAI         2002         6         DSCC     Yes             No                   2
4820010031390    CAI         2003         9         DSCC     Yes            Yes                   1
4820010046585    CAI         2003         16        DSCC     Yes            Yes                   1
4820010411366    CAI         2003         4         DSCC     Yes             No                   1
4820010412950    CAI         2002         8         DSCC     Yes             No                   1
4820010428480    CAI         2001         4         DSCC     Yes            Yes                   1
4820012106484    CAI         2001         3         DSCC     Yes             No                   2
4820013160450    CAI         2002         2         DSCC     Yes             No                   3
5305000090467    CAI         1998         3         DSCP     Yes             No                   5
5305004326875    CAI         1992         1         DSCP     Yes             No                   3
5305009015079    CAI         1988         1         DSCP     Yes             No                   1
5305010351840    CAI         2002         8         DSCP     Yes             No                   1
5305010351841    CAI         2002         7         DSCP     Yes             No                   1
5306011759274    CAI         1999         2         DSCP     Yes             No                   1
5307005458592    CAI         1998         3         DSCP      No            Yes                   1
5310001498989    CAI         1992         1         DSCP      No             No                   1
5310003709147    CAI         1985         4         DSCP      No            Yes                   2
5310004119786    CAI         1988         1         DSCP      No             No                   3
5310011251859    CAI         1986         1         DSCP      No             No                   2
5310012053458    NC          1995         2         DSCP      No             No                   1
5310012151378    CAI         1995         2         DSCP      No            Yes                   1
5315001351431    CAI         1994         1         DSCP      No            Yes                   1
5315011051659    CAI         1988         1         DSCP      No            Yes                   3
5325002442558    CAI         2002         4         DSCP     Yes             No                   2
5325003420444    CAI         2002         8         DSCP     Yes             No                   3
5325010347583    NC          2000         6         DSCP     Yes            Yes                   1
5330001111505    CAI         1984         2         DSCP      No            Yes                   1
5330001502475    CAI         1983         1         DSCP      No             No                   2
5330003083569    CAI         2000         4         DSCP     Yes            Yes                   1
5330003409012    CAI         1984         1         DSCP      No            Yes                   1



                                                     25
                            Service & Sales, Inc.
   National                      Contracts          DLA      DLA     Previously Supplied   ESAs Responsible
 Stock Number Criticality   Last Buy    Number      Center Approved1     To Services           For Part
5330004831952    CAI         1996         4         DSCP      No            Yes                   1
5330005546645    CAI         2002         12        DSCP     Yes            Yes                   1
5330010187954    CAI         1989         2         DSCP     Yes            Yes                   1
5330010348898    CAI         1988         1         DSCP      No            Yes                   1
5331002456770    CAI         1985         1         DSCP      No             No                   4
5340003174781    CAI         2001         5         DSCP     Yes             No                   1
5340007899270    CAI         1995         1         DSCP      No             No                   1
5340010228520    CAI         2002         5         DSCP     Yes             No                   1
5340012331284    CAI         1997         2         DSCP     Yes             No                   1
5342003220731    CAI         1987         2         DSCR      No            Yes                   1
5342005664474    CAI         1985         1         DSCR      No            Yes                   2
5360000147500    CAI         1990         5         DSCP     Yes             No                   4
5360005967486    CAI         2001         5         DSCP     Yes             No                   1
5360008544392    CAI         1992         3         DSCP      No            Yes                   3
5365002679699    CAI         2003         6         DSCR     Yes             No                   3
5365003214749    CAI         1998         1         DSCC      No             No                   1
5365003675438    CAI         1992         1         DSCR      No             No                   1
5365006640830    CAI         1987         1         DSCR      No            Yes                   3
5365006850573    CAI         1987         1         DSCR      No            Yes                   2
5365010052583    CAI         2002         7         DSCR     Yes             No                   1
5365010149722    CAI         1988         1         DSCR      No            Yes                   2
5365010151242    CAI         2003         4         DSCR     Yes             No                   1
5365010201407    CAI         1991         1         DSCR     Yes             No                   1
5365011173819    CAI         1987         2         DSCP      No             No                   1
5365011385385    CAI         1984         1         DSCR      No             No                   1
5930010106043    CAI         1986         1         DSCC      No            Yes                   1
5930010351769    CAI         2002         9         DSCC      No            Yes                   1
5945001109059    CAI         2002         6         DSCC     Yes            Yes                   1
5945004351198    CAI         2003         10        DSCC     Yes            Yes                   1
5945004618132    CAI         1997         1         DSCC     Yes             No                   1
5945010162545    CAI         1992         3         DSCC      No            Yes                   1
5970000145589    NC          1981          1        DSCR      No             No                   4
5970010937344    NC          1990          2        DSCR     Yes             No                   2
5995007078267    CAI         1998         9         DSCR      No            Yes                   2
5995009087532    CAI         2002         8         DSCR     Yes             No                   1
5995010038973    CAI         1988         5         DSCR      No            Yes                   1
5995012692028    CAI         1999         6         DSCR      No            Yes                   1
6150004929457    CAI         2002         3         DSCR     Yes            Yes                   1
6150007078266    NC          1998          4        DSCR     Yes             No                   1
6150007598679    CAI         1993         3         DSCR      No            Yes                   1
6150008486925    CAI         1995         3         DSCR      No             No                   1
6150010930455    NC          1986         1         DSCR     Yes            Yes                   1
6150012007159    CAI         2001         5         DSCR     Yes            Yes                   1
6150012070061    CAI         1999         3         DSCR     Yes             No                   1
6150012149890    CSI         2001          4        DSCR     Yes            Yes                   1



                                                     26
                                 Service & Sales, Inc.
        National                      Contracts          DLA      DLA     Previously Supplied   ESAs Responsible
     Stock Number Criticality     Last Buy   Number      Center Approved1     To Services           For Part
    6620012015221    CAI           2002        2         DSCR     Yes             No                   2
    6645011148044    CAI           1994        2         DSCR      No             No                   2
    6680005785607    CAI           2002        6         DSCR     Yes            Yes                   2
    6680010651668    CAI           2003        4         DSCR     Yes             No                   1
    6680012294755    CAI           2003        6         DSCR     Yes             No                   2
    6685001789575    CAI           1998        6         DSCR     Yes            Yes                   1
    6685001811898    CAI           1982        1         DSCR      No            Yes                   1
    6685005514811    CAI           1986        2         DSCR      No            Yes                   3
    6685006750060    CAI           1984        1         DSCR     Yes             No                   2
    6685007227210    NC            1990        1         DSCR      No             No                   3
    6685007308276    NC            2003        8         DSCR     Yes             No                   2
    6685007308385    NC            1988        3         DSCR     Yes            Yes                   1
    6685009348208    CAI           2003        9         DSCR     Yes             No                   3
    6685010176445    CAI           1980        1         DSCR     Yes             No                   1
    6685011406604    CAI           2001        7         DSCR     Yes             No                   1
    6685011608858    NC            1998        2         DSCR      No             No                   1
    6685011938879    CAI           1988        1         DSCR      No            Yes                   1
    6685012430302    CAI           2003        4         DSCR     Yes            Yes                   1

1
    According to Product Item Descriptions contained in the DLA Standard Automated Materiel Management
    System Database for Defense Supply Centers Richmond and Philadelphia items and Federal Logistics
    Information System from Haystacks Online for Windows for Defense Supply Center Columbus items.


    CAI = Critical Application Item
    CSI = Critical Safety Item
    NC = Non-Critical

    DSCC = Defense Supply Center Columbus
    DSCP = Defense Supply Center Philadelphia
    DSCR = Defense Supply Center Richmond




                                                          27
Index D-2. Licensed Parts without Prior Contracts

     National                DLA      DLA       ESAs Responsible
  Stock Number Criticality   Center Approved1       For Part
 1650008069805    CAI        DSCR      No              2
 1650009673614    CAI        DSCR      No              2
 1660004638846    CAI        DSCR      No              1
 1660006704232    CAI        DSCR      No              1
 1660008874336    CAI        DSCR      No              1
 1660009565033    CAI        DSCR      No              3
 1660010613772    CAI        DSCR      No              1
 1660011548892    CAI        DSCR      No              3
 1660011588519    CAI        DSCR      No              1
 1660011691747    NC         DSCR      No              1
 1660011721431    CAI        DSCR     Yes              1
 1660012122970    CAI        DSCR      No              1
 1680010074563    CAI        DSCR      No              1
 2805000090428    CAI        DSCC      No              2
 2805001597792    CAI        DSCC      No              2
 2835002251639    CAI        DSCR      No              3
 2835003033536    CAI        DSCR      No              1
 2835003121227    CAI        DSCR      No              1
 2835003220744    CAI        DSCR      No              1
 2835003709131    CAI        DSCR      No              4
 2835004325560    CAI        DSCR      No              1
 2835004600509    CAI        DSCR      No              1
 2835005302344    CAI        DSCR      No              1
 2835005464581    NC         DSCR      No              3
 2835006074662    CAI        DSCR      No              1
 2835006501456    CAI        DSCR      No              3
 2835006924223    CAI        DSCR      No              3
 2835007525106    CAI        DSCR      No              2
 2835007586740    CAI        DSCR      No              2
 2835008638508    CAI        DSCR      No              3
 2835009089322    CAI        DSCR      No              4
 2835010031409    CAI        DSCR      No              1
 2835010033550    CSI        DSCR     Yes              4
 2835010112876    NC         DSCR      No              2
 2835010346942    CAI        DSCR      No              1
 2835010743477    CAI        DSCR     Yes              2
 2835012153574    CAI        DSCR      No              3
 2835012286362    CAI        DSCR      No              2
 2835012392706    CAI        DSCR      No              1
 2835012692835    CAI        DSCR      No              1
 2910000562120    CAI        DSCC      No              4
 2910002205539    CAI        DSCC      No              1
 2910007194550    CAI        DSCC      No              2



                                                28
    National                DLA      DLA       ESAs Responsible
 Stock Number Criticality   Center Approved1       For Part
2910007771732    CAI        DSCC      No              4
2910012692847    CAI        DSCC      No              1
2915012921600    CAI        DSCR     Yes              2
2940000514063    CAI        DSCC     Yes              2
2945005549142    CAI        DSCR      No              3
2990012089950    NC         DSCC      No              1
2995004016031    NC         DSCR      No              1
2995004945719    CAI        DSCR      No              3
3020010039124    CAI        DSCC     Yes              1
3040002832224    CAI        DSCC      No              4
3040010218095    CAI        DSCC      No              2
3040010623870    CAI        DSCC     Yes              3
3040011114408    CAI        DSCC      No              2
3040011854178    CAI        DSCC      No              1
3040012200667    NC         DSCC      No              1
3120002796183    CAI        DSCR     Yes              1
4310003646580    CAI        DSCC      No              2
4320014654592    CAI        DSCC      No              1
4330010141896    CAI        DSCC      No              4
4710003019845    CAI        DSCC     Yes              1
4710004367579    CAI        DSCC      No              1
4710004617605    CAI        DSCC      No              1
4710010046587    CAI        DSCC      No              1
4710010057038    CAI        DSCC      No              1
4710011066604    CAI        DSCC      No              3
4710011136590    CAI        DSCC      No              1
4710012458418    CAI        DSCC      No              1
4710012845475    CAI        DSCC     Yes              1
4720002250574    CAI        DSCC      No              1
4730007228451    CAI        DSCC     Yes              2
4730008250481    CAI        DSCC      No              2
4730012286943    CAI        DSCC      No              2
4730013063093    CAI        DSCC      No              1
4810001161294    NC         DSCC      No              2
4810001214524    CAI        DSCC      No              3
4810002700766    CAI        DSCC      No              1
4810005089425    CAI        DSCC     Yes              1
4810007831082    CAI        DSCC      No              2
4810008686554    CAI        DSCC     Yes              3
4810008880600    CAI        DSCC      No              1
4810010126462    CAI        DSCC      No              4
4810010141909    CAI        DSCC      No              2
4810010252902    NC         DSCC      No              2
4810010281906    CAI        DSCC      No              2
4810011088637    CAI        DSCC      No              1
4810011161246    CAI        DSCC      No              1



                                               29
    National                DLA      DLA       ESAs Responsible
 Stock Number Criticality   Center Approved1       For Part
4810011635206    CAI        DSCC      No              1
4810011667132    CAI        DSCC      No              1
4810012125274    CAI        DSCC      No              1
4810012207434    CAI        DSCC      No              2
4810012491290    CAI        DSCC      No              1
4810012615225    CAI        DSCC      No              2
4810013562737    CAI        DSCC      No              3
4820000090391    CAI        DSCC      No              2
4820000161019    CAI        DSCC      No              1
4820002860716    CAI        DSCC     Yes              1
4820003561042    NC         DSCC      No              1
4820004935039    CAI        DSCC      No              1
4820005314168    CAI        DSCC      No              1
4820007581155    CAI        DSCC      No              3
4820008667985    CAI        DSCC      No              1
4820009990476    CAI        DSCC      No              3
4820010180077    NC         DSCC      No              2
4820010792285    CAI        DSCC      No              2
4820011955209    CAI        DSCC      No              1
4820012056394    CAI        DSCC      No              1
4820012118833    CAI        DSCC      No              1
4820012169329    CAI        DSCC      No              2
4820012977979    CAI        DSCC      No              1
4820013149560    CAI        DSCC      No              2
4820013572433    NC         DSCC      No              1
5305010077873    CAI        DSCP      No              1
5305011596186    CAI        DSCP      No              2
5306004492935    CAI        DSCP     Yes              2
5310001019411    CAI        DSCP     Yes              2
5310006086309    CAI        DSCP      No              3
5310008836977    CAI        DSCP     Yes              3
5310010046964    CAI        DSCP      No              1
5310010164875    CAI        DSCP      No              1
5310010493640    CAI        DSCP      No              2
5310010899202    CAI        DSCP      No              2
5310011744011    CAI        DSCP      No              1
5310011760920    CAI        DSCP      No              1
5315001436372    CAI        DSCP      No              1
5315005498419    CAI        DSCP      No              1
5315010087080    NC         DSCP      No              1
5315012241378    NC         DSCP      No              1
5325002054737    CAI        DSCP      No              3
5325006164946    CAI        DSCP      No              3
5325008055118    NC         DSCP      No              3
5330000016695    NC         DSCP      No              1
5330004730582    CAI        DSCP      No              1



                                               30
    National                DLA      DLA       ESAs Responsible
 Stock Number Criticality   Center Approved1       For Part
5330008543014    CAI        DSCP      No              2
5330009084349    CAI        DSCP      No              3
5330010287381    CAI        DSCP      No              1
5330010652899    CAI        DSCP      No              1
5330011051880    CAI        DSCP      No              3
5330012713113    CAI        DSCP      No              3
5330013209295    CAI        DSCP      No              2
5330013671524    NC         DSCP      No              1
5331011484783    CAI        DSCP      No              2
5340011084127    CAI        DSCP      No              4
5340012032489    CAI        DSCP      No              4
5340013707670    NC         DSCP      No              1
5360008687484    CAI        DSCP      No              3
5365000192587    CAI        DSCR     Yes              3
5365003190096    CAI        DSCR      No              1
5365003190097    CAI        DSCR      No              1
5365005261974    CAI        DSCR      No              2
5365008941879    CAI        DSCR      No              3
5365010047138    NC         DSCR      No              1
5365010054605    CAI        DSCR      No              1
5365011173818    CAI        DSCR     Yes              1
5365011173820    CAI        DSCR     Yes              1
5365012937958    CAI        DSCR     Yes              1
5365013094398    CAI        DSCR      No              1
5365013101672    CAI        DSCR     Yes              1
5365013369014    NC         DSCR      No              1
5365013989129    CAI        DSCR      No              1
5905010744040    CAI        DSCC      No              1
5905011756049    CAI        DSCC      No              1
5915008462885    CAI        DSCC      No              2
5930011590437    CAI        DSCC      No              3
5930011955181    CAI        DSCC      No              1
5930012111949    CAI        DSCC      No              1
5930012143571    CAI        DSCC      No              1
5930012798996    NC         DSCC      No              2
5945011307253    CAI        DSCC      No              3
5945011954606    NC         DSCC      No              1
5950011278657    CAI        DSCC      No              1
5995007349865    CAI        DSCR     Yes              1
5995008310983    CAI        DSCR      No              3
5995011137016    NC         DSCR      No              1
5995013964222    NC         DSCR      No              1
6115008521438    CAI        DSCR      No              1
6150012070062    CAI        DSCR      No              1
6680001181602    NC         DSCR      No              3
6680002203265    CAI        DSCR      No              1



                                               31
        National                DLA      DLA          ESAs Responsible
     Stock Number Criticality   Center Approved1          For Part
    6680008619865    CAI        DSCR      No                 3
    6680009036747    NC         DSCR      No                 1
    6680010077245    CAI        DSCR      No                 1
    6685000657084    CAI        DSCR      No                 3
    6685003859000    CAI        DSCR      No                 1
    6685008508591    CAI        DSCR     Yes                 1
    6685009434813    CAI        DSCR     Yes                 2
    6685009434815    CAI        DSCR      No                 3
    6685010176444    CAI        DSCR      No                 1
    6685011136897    CAI        DSCR      No                 2
    6685011400166    CAI        DSCR     Yes                 1
    6685011792777    CAI        DSCR      No                 2
    6685012088641    CAI        DSCR      No                 1
    6685013650776    CAI        DSCR      No                 2
    6695011927409    CAI        DSCR      No                 1
    6695012957886    CAI        DSCR      No                 1

1
    According to Product Item Descriptions contained in the DLA Standard Automated Materiel Management
    System Database for Defense Supply Centers Richmond and Philadelphia items and Federal Logistics
    Information System from Haystacks Online for Windows for Defense Supply Center Columbus items.

CAI = Critical Application Item
CSI = Critical Safety Item
NC = Non-Critical

DSCC = Defense Supply Center Columbus
DSCP = Defense Supply Center Philadelphia
DSCR = Defense Supply Center Richmond




                                                       32
Index D-3. Non-Licensed Parts with Prior Contracts


                                  Service & Sales, Inc.
         National                      Contracts          DLA      DLA       Previously Supplied   ESAs Responsible
      Stock Number Criticality     Last Buy   Number      Center Approved1      To Services            For Part
     1660003715859    CAI           2002        10        DSCR     Yes             Yes                    1
     1660007071985    CAI           1995        1         DSCR      No              No                    1
     1660008734285    CAI           2002        3         DSCR      No              No                    2
     1660009601776    NC            1990        1         DSCR      No             Yes                    1
     1660012133025    CAI           1997        2         DSCR      No             Yes                    1
     2835005320362    CAI           1990        2         DSCR      No             Yes                    3
     2835006044505    CAI           1993        3         DSCR      No             Yes                    2
     2835006704213    CAI           1995        2         DSCR     Yes             Yes                    2
     2835006769862    CAI           1990        1         DSCR      No             Yes                    2
     2835006924246    CAI           1996        2         DSCR      No              No                    2
     2835008303072    CAI           1997        4         DSCR     Yes             Yes                    3
     2940001106839    CAI           1982        1         DSCC      No             Yes                    1
     2940010574301    CAI           1988        1         DSCC      No             Yes                    1
     2995000158798    CAI           1988        1         DSCR      No             Yes                    1
     3120000317163    CAI           1989        3         DSCR      No             Yes                    3
     3120003459496    CAI           2002        3         DSCR     Yes             Yes                    2
     4710011611379    CAI           1988        1         DSCC      No              No                    1
     4730003356354    CAI           1985        1         DSCC      No             Yes                    4
     4810001234370    CAI           1987        1         DSCC      No             Yes                    1
     4820004568575    CAI           1994        1         DSCC      No             Yes                    1
     5305004100715    CAI           1999        2         DSCP      No             Yes                    1
     5315008801995    CAI           1992        1         DSCP     Yes              No                    2
     5330008502872    CAI           1996        3         DSCP      No             Yes                    5
     5365003072741    CAI           1988        1         DSCR     Yes              No                    1
     5365007572190    CAI           1994        2         DSCR     Yes             Yes                    1
     5365012224201    CAI           1993        2         DSCR     Yes             Yes                    1
     5935012295586    CAI           2003        4         DSCC      No             Yes                    1
     5995003293712    NC            2001        1         DSCR     Yes              No                    1

 1
     According to Product Item Descriptions contained in the DLA Standard Automated Materiel Management
     System Database for Defense Supply Centers Richmond and Philadelphia items and Federal Logistics
     Information System from Haystacks Online for Windows for Defense Supply Center Columbus items.


     CAI = Critical Application Item
     CSI = Critical Safety Item
     NC = Non-Critical

 DSCC = Defense Supply Center Columbus
 DSCP = Defense Supply Center Philadelphia
 DSCR = Defense Supply Center Richmond




                                                           33
Appendix E. Naval Inventory Control Point,
 Philadelphia Site Survey Status Report




                       34
35
36
37
38
39
40
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
  Director, Acquisition Initiatives
  Director, Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Air Systems Command
Commander, Naval Supply Systems Command
  Commanding Officer, Naval Inventory Control Point Philadelphia
  Commanding Officer, Naval Inventory Control Point Mechanicsburg

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Air Force Materiel Command
  Commander, Ogden Air Logistics Center
  Commander, Oklahoma City Air Logistics Center
  Commander, Warner Robins Air Logistics Center

Unified Command
Commander, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Logistics Agency
  Commander, Defense Supply Center Columbus
  Commander, Defense Supply Center Philadelphia
  Commander, Defense Supply Center Richmond




                                          41
Non-Defense Federal Organizations
Office of Management and Budget
Office of Federal Procurement Policy

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        42
Defense Logistics Agency Comments




                     43
44
45
46
     Final Report
      Reference




     Revised
     Pages 11, 15




47
48
Team Members
The Contract Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

David K. Steensma
Henry F. Kleinknecht
Patrick J. Nix
Joseph P. Bucsko
Jason T. Steinhart
Thomas G. Daquano
Shannon L. Strang
Michael B. Vandesteene
